                                                            OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM




                      A proactive review by NSF OIG focused on plagiarism in SBIRs identified alleged
              plagiarism within a proposal submitted by the subjects.' The case was opened for Administrative


                     Analysis indicates that some of the similar text is general information regarding the
              technology used in the proposed research. Another section appears to be from the manufacturer's
              website whose products the investigator is using for his research. The investigator references the
              manufacturer in the product description which is constrained by,technical language. The
              remaining questionable text is de minimus.                        A




                        Therefore, OIG concludes that the allegation of plagiarism is not substantiated.

                        Accordingly, this case is closed.




                                                                                                                         I
                                                                                                                         i




                                                                                                                             ~


'
I                                                                                                                  111
    NSF OIG Form 2 (1 1/02)
